ma
I

C@QCKLE

2311 Douglas Street Le ga 1 Bri efs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No, 19-409

CITY OF CLEVELAND, KAREN LAMENDOLA,
ADMINISTRATOR FOR ESTATE OF FRANK
STOIKER, AND J. REID YODER, ADMINISTRATOR
FOR ESTATES OF EUGENE TERPAY,
JAMES T. FARMER, AND JOHN STAIMPEL,
Petitioners,

vs.
RICKY JACKSON, KWAME AJAMU, FKA RONNIE
BRIDGEMAN, AND WILEY EDWARD BRIDGEMAN,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 17th day of October, 2019, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE INTERNATIONAL MUNICIPAL
LAWYERS ASSOCIATION IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served
have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
TIMOTHY T. COATES
Counsel of Record
GREINES, MARTIN, STEIN
& RICHLAND LLP
5900 Wilshire Boulevard, 12th Floor
Los Angeles, California 90036
Telephone: (310) 859-7811
Facsimile: (310) 276-5261
E-mail: tcoates@gmsr.com

Counsel for Amicus Curiae
International Municipal
Lawyers Association

Subscribed and sworn to before me this 17th day of October, 2019.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary 5 y
State of Nebraska . Le .

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38848
Service List for City of Cleveland, et al. v. Jackson, et al., 19-409

Elizabeth Wang, Esq.

Loevy & Loevy

2060 Broadway, Suite 460
Boulder, CO 80302
Telephone: (720) 328-5642
Email: elizabethw@loevy.com

Counsel for Respondent Ricky Jackson

David E. Mills, Esq.

The Mills Law Office LLC

1300 West 9th Street, Suite 636
Cleveland, OH 44113

Telephone: (216) 929-4747

Email: dm@MillsFederalAppeals.com

Counsel for Respondents Kwame Ajamu (fka Ronnie Bridgeman) and
Wiley Bridgeman

Jeffrey A. Lamken, Esq.
Mololamken LLP

The Watergate, Suite 660

600 New Hampshire Avenue, N.W.
Washington, DC 20037

Telephone: (202) 556-2010

Email: jlamken@mololamken.com

Counsel for Petitioners City of Cleveland, et al.
